Supreme Court, U.S.
FILED

fC

20

JUN 1 2 2020

Qj VJ'1

No.

OFFICE OF THE CLERK

IN THE UNITED STATES SUPREME COURT
In re: ROBYN JILL FARRINGTON, aka Robyn Jill Fleisher, Debtor
ROBYN JILL FARRINGTON

9

9

Petitioner,
v,

U.S. BANK TRUST N.A., as trustee for LSF9 Master Participation Trust;
LSF9 MASTER PARTICIPATION TRUST;
CALIBER HOME LOANS, INC.; JP MORGAN CHASE BANK, N.A.
Respondents.
Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Third Circuit
Robyn Jill Farrington
Pro Se Appellant
P.O. Box 2
Westfield NJ 07090
(973) 580-8986

,,ij

i

i:

^ !>:r\ V 1 I
[$ \i 1- W

r1

\
, \\

&U U ■n

Questions Presented
1.

Whether claims of fraud in a mortgage foreclosure action are barred by

the Rooker-Feldman doctrine and res judicata.
2.

Whether the dismissal of a challenge to the Proof of Claim filed by

Caliber Home Loans Inc., on behalf of U.S. Bank Trust N.A., as trustee for LSF9
Master Participation Trust, was an abrogation of the Bankruptcy Court's equitable
powers and exclusive jurisdiction over such matters.

List of Parties and Related Cases
The parties are listed in the caption.
The only related case is a Chapter 13 Bankruptcy case, which is before the
U.S. Bankruptcy Court for the District of New Jersey under Case No.
17-26505-JKS.

i

Table of Contents
Questions Presented

1

List of Parties and Related Cases

1

Table of Contents

11

Index of Appendices

in

Opinions Below

1

Jurisdiction

1

Statement of the Case

2

REASONS FOR GRANTING THE PETITION...............
12
1. The Rooker-Feldman doctrine does not apply here
12
2. The claims are not barred by res judicata..............
16
3. The Bankruptcy Court Abused Its Discretion And Misapplied The Law In
Dismissing The Proof of Claim Challenges Set Forth In The Adversary Complaint
19
Conclusion

22

Index of Appendices
Opinion of the United States Court of Appeals for the Third Circuit

Al

Order and Opinion of the United States district court

A7

Opinion of the United States bankruptcy court

ti.

A21

TABLE OF AUTHORITIES
FEDERAL CASES
Atlantic Coast Line Railroad Company v. Brotherhood of Locomotive Eng’rs, 398
U.S. 281 (1970)............................................................................................................ 12
Bolden v. City of Topeka, 441 F.3d 1129 (10th Cir.2006)
Brown v. Felsen, 442 U.S. 127 (1979)

13
17, 18, 19

In re Combustion Engineering Inc., 391 F.3d 190

20, 21

Exxon Mobil Corporation v. Saudi Basic Indus. Corp., 544 U.S. 280 (2005)
............................................ ............................................................................. 12, 16, 22
Giles v. Phelan Hallinan and Schmieg LLP, 901 F.Supp.2d 509 (D.N.J.2012). ... 14
Hoblock v. Albany County Board of Elections, 422 F.3d 77 (2d Cir.2005)
Hulmes v. Honda Motor Company, 924 F.Supp. 673

12
17, 19

Sasson v. Sokoloff (In re Sasson), 424 F.3d 864 (9th Cir.2005), cert, denied, 546 U.S.
1206 (2006)
22
STATE CASES
Culver v. Insurance Company of Northern American, 115 N.J. 451 (1989)
16, 17, 18, 19
JPMorgan Chase Bank N.A. v. Butler, 975 N.Y.S.2d 366 (Supreme Ct. Kings
Company 2013).....................................................................................................

Z, n

Lubliner v. Board of Alcoholic Beverage Control, 33 N.J. 428 (1960)

16

Velasquez v. Franz, 123 N.J. 498 (1991)

16

Ml

FEDERAL STATUTES
11 U.S.C. § 502

20

11 U.S.C. § 502(b)(1)

20

11 U.S.C. § 502

20

iv

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the
judgment below.
OPINIONS BELOW
The opinion of the United States Court of Appeals for the Third Circuit
appears at Appendix Al of the Petition and is unreported.
The opinion of the United States district court appears at Appendix A7 of the
Petition and is unreported.
The opinion of the United States bankruptcy court on the Rule 60(b)(1)
motion appears at Appendix A21 of the Petition and is unreported.
Jurisdiction
The United States Court of Appeals for the Third Circuit decided the case on
January 14, 2020. By virtue of an administrative order, on March 19, 2020, the
Court extended the deadline to file petitions for writs of certiorari in all cases due
on or after the date of that order to 150 days from the date of the lower court
judgment, order denying discretionary review, or order denying a timely petition for
rehearing.
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

I

Statement of the Case
Petitioner is currently the sole owner of a 2-family home located at 530
Summit Avenue, Westfield, New Jersey ("Property"), which was first acquired on
June 9, 1999. The Property is her only home.
In July 2006, Petitioner refinanced 2 prior loans on the Property through
Washington Mutual Bank FA ("WMB") with an adjustable rate mortgage ("Loan").
Appellee U.S. Bank Trust N.A. ("U.S. Bank"), as trustee for LSF9 Master
Participation Trust ("LSF9 Trust” together with Caliber Home Loans Inc. and U.S.
Bank, "LSF9 Parties") obtained an uncontested foreclosure judgment based upon
assertions that the LSF9 Trust acquired a mortgage on the home from JPMorgan
Chase Bank N.A. ("JPMC") that JPMC claimed to have acquired from Washington
Mutual Bank ("WMB") through the Federal Deposit Insurance Corporation
("FDIC").
However, the LSF9 Trust's claimed ownership of the Loan is based upon a
completely fabricated record that is clear after examining the timeline of events
underlying this case in the context of WMB's lending operations, subsequent closure
and the FDIC's hastily-arranged sale of certain WMB assets to JPMC.
Generally, when banks lend to borrowers under tight lending standards, they
retain ownership of loans and the corresponding credit risk (i.e., the risk that
borrowers will default), and include the loans as assets on their balance
sheets-typically called an "on-balance-sheet" activity. Through a process known as
securitization, however, banks can convert "undesirable" loans into working capital
2

by selling them as investments, thereby transferring the credit risk, and removing
the loans from their balance sheets, which is known as an "off-balance-sheet"
activity.
Taking advantage of the securitization concept, WMB's residential lending
operations primarily focused on originating high-risk, adjustable-rate loans because
those facilities boasted low initial interest rates (attractive to consumers), and
residential mortgage-backed securities ("RMBS") containing these loans could be
sold for higher prices to institutional investors.
Rather than hold onto loans it originated, WMB securitized them using 1 of 2
separate entities, WaMu Asset Acceptance Corporation ("WMAAC") and
Washington Mutual Mortgage Securities Corporation ("WMMSC"), both
subsidiaries of WMB's parent company, Washington Mutual Inc. ("WMI"). Both
WMAAC and WMMSC were special purpose vehicles that acted as a "depositor" or
"securitizer" for hundreds of WMBsponsored RMBS trusts-mere conduits that
acquired loan pools from WMB and simultaneously sold those pools to RMBS trusts.
Another WMI subsidiary, Washington Mutual Capital Corporation,
underwrote, marketed and sold RMBS certificates backed by future cash-flows on
the loan pools. These transactions were all “off-balance sheet activities,” meaning
they were not reflected on WMB’s books and records.
What made this scheme more profitable for WMB was that, after
"securitizing" (i.e., selling) all of its loans, WMB continued earning income on those
same loans from the more-valuable servicing rights, and also acted as custodian of
3

all loan documents. Both WMAAC and WMMSC also publicly stated in various
prospectuses filed with the SEC that notes and mortgages for securitized WMB
loans would not be endorsed or assigned to any of the MBS trusts. See WaMu
Mortgage Pass-Through Certificates, Series 2006-AR9 Trust, Free Writing
Prospectus (Jul. 13, 2006) at p. S-38, available at
http ://www. secinfo .com/dsvRa. v2 5g.htm
This aggressive business model gave WMB access to virtually-unlimited
funds to originate new loans (through sale and retained servicing rights), as well as
complete control over the collateral files. In effect, WMB retained all of the benefits
of loan-ownership without any of the associated risks.
In March 2012, Petitioner retained a securitization analyst, William D.
McCaffrey to perform an audit of the Loan. Utilizing industry-specific software that
permits access to loan-level data of any "named Trust-Entity," McCaffrey traced the
Loan and discovered that it was securitized and sold/transferred into the WaMu
Mortgage Pass-Through Certificates, Series 2006-AR9 Trust ("2006-AR9 Trust").
Documents filed with the SEC indicate that the depositor (i.e., the entity that held
the loan pool prior to securitization) for the 2006-AR9 Trust was WMAAC, which
indicates that WMB sold the Loan to WMAAC after origination.
Furthermore, the Prospectus Supplement for the 2006-AR9 Trust stated that
"it is the intent of the parties to the pooling agreement that the conveyance of the
mortgage loans and the related assets to the [2006-AR9] Trust constitute an
absolute sale of those assets." WaMu Mortgage Pass-Through Certificates, Series
4

2006-AR9 Trust, Prospectus Supplement (Form 424B5) (Jul. 25, 2006) at p. S-38
(emphasis added) available at http://www.secinfo.com/dsvRa.v31p.htm. Also
according to this document, even though all loans in the pool were sold with
absolution on July 26, 2006, to the 2006-AR9 Trust, no assignments would be
executed, and the original loan documents (e.g., the original "wet-ink" note), would
remain in WMB's possession as custodian. The prospectus, as well as the Pooling
and Servicing Agreement appended thereto, also state that WMB would service the
loans in the 2006-AR9 Trust. See Ex. 4.1, WaMu Mortgage Pass-Through
Certificates, Series 2006-AR9 Trust, Current Report (Form 8-K) (Aug. 10, 2006)
available at http://www.secinfo.com/DB/SEC/ 2006-000/1277/277-0005/95-003.pdf.
On July 26, 2006, WMB executed an Affidavit of Lost Note, which stated that
a "due and diligent search" was conducted for the original note for the Loan, and
that the "search failed to locate said promissory note, and said promissory note is
deemed lost." This is probative for several reasons, including the fact that the "due
and diligent search" was made the same day that the 2006-AR9 Trust transaction
closed. Moreover, in a letter to me dated August 14, 2007, WMB confirmed that it
no longer owned the Loan and was only the servicer, stating: "We have conducted
our annual review of your mortgage loan on the above referenced property.
Washington Mutual Bank, FA has retained only servicing rights on your loan."
On September 25, 2008, the former Office of Thrift Supervision closed WMB
and named the FDIC as receiver. That same day, JPMorgan Chase Bank N.A.
("JPMC") entered into a Purchase and Assumption Agreement ("PAA") with the
5

FDIC to purchase certain assets of WMB. The PAA defined "assets" as "all assets
... purchased pursuant to Section 3.1," specifically excluding assets owned by
subsidiaries of WMB; and, according Section 3.1, JPMC purchased "all right, title,
and interest of the [FDIC] in and to all of the assets ... [and JPMC] specifically
purchases all mortgage servicing rights and obligations of [WMB]."
The PAA provided that JPMC was to provide the FDIC with a complete
statement of all assets and liabilities shown on WMB's books as of the date WMB
closed and identifying which assets/liabilities JPMC acquired and which
assets/liabilities the FDIC retained. JPMC was also required to provide the FDIC
with an electronic database of all loans, deposits, subsidiaries and other business
ventures owned by WMB as of the date it closed. Despite those requirements,
though, the FDIC has stated that it has no record of any inventory of the loans
owned by WMB as of September 25, 2008, leading one to conclude that WMB did
not own any loans as of that date.
Since WMB was still acting as servicer for mortgage loans securitized
through WMAAC and/or WMMSC when it was closed, JPMC became the servicer
for those accounts under the PAA; and, having acquired WMB's various banking
branches and administrative offices, JPMC also controlled WMB's document vaults,
where collateral files (including original notes) for thousands of mortgage loans
originated by WMB and later securitized, were stored. After taking control of
WMB, JPMC undoubtedly conducted a comprehensive review of WMB's assets and,
therefore, was surely aware that WMB held no mortgage loans. Indeed, as stated
6

above, no loans were "on the books" when WMB closed, a fact recognized by the
Supreme Court of New York in 2013. See JPMorean Chase Bank N.A. v. Butler, 975
N.Y.S.2d 366 (Supreme Ct. Kings Co. 2013)
But JPMC also knew that since WMB never endorsed or assigned any of its
securitized loans to the RMBS trust entities, it could easily create a paper trail to
give itself title to thousands of loans backed by billions of dollars in collateral. So,
capitalizing on the FDIC’s lack of direct oversight, the confusion created by WMB's
closure, and public perception that it acquired ownership of all mortgage loans
originated by WMB, JPMC seized collateral documents from WMB's vaults and,
years after WMB closed, began unilaterally assigning notes to itself as
"attorney-in-fact" for the FDIC.
This precise issue has been the subject of numerous lawsuits against JPMC
by investors and others, including civil racketeering claims brought by Mortgage
Resolution Servicing Inc. ("MRS"), which bought a pool of WMB-originated
mortgage loans from JPMC that had actually been sold by WMB into RMBS trusts.
MRS alleges that even though JPMC represented that it owned (and had the right
to transfer) the loans it was selling to MRS, those loans were not owned by JPMC at
all. Specifically, MRS asserts that some of the loans it was sold were RMBS trust
loans that JPMC was only servicing and that JPMC essentially off-loaded these
"assets" to MRS conceal regulatory non-compliance and fraud.
To carry out this sophisticated scheme, JPMC funneled thousands of loan
documents through its offices in Monroe, Louisiana, where employees were armed
7

with signature duplication machines and pre-signed endorsement stamps of former
WMB officials stored in WMB's vaults. Where the original notes were missings
JPMC employees would recreate "wet ink" signatures on the notes using signing
machines and apply blank endorsements from WMB using the pre-signed stamps;
and where the original notes were found in WMB's vaults, JPMC employees would
simply stamp the endorsement from WMB on it. This practice, known as
"robosigning," was widely publicized and JPMC, along with several other mortgage
servicers and title companies, were sued by the U.S. Department of Justice and
numerous state attorneys general for creating these fraudulent documents and
forced to pay billions in fines for using those documents in foreclosure proceedings
throughout the country.
The pre-signed endorsement stamp of one former WMB employee, Cynthia
Riley, appears on thousands of notes (including at least one version of the note on
the Loan); and, deposition testimony given by Riley in a 2013 Florida foreclosure
case outlines the manner in which her signature stamp was used for endorsement
purposes (supporting the previously-referenced New York state-court ruling) and
provides a verifiable timeline of her employment with WMB.
Riley was promoted to Vice President of Secondary Delivery Operations in
WMB's Jacksonville, Florida facility, in or around June 2004, where she led a staff
of 10-12 people in the "note review unit" who used her facsimile signature stamp to
execute notes. Riley testified that she never personally reviewed or put an
endorsement stamp on a note, and that she was laid off from her position as Vice
8

President of WMB when the Jacksonville office moved to Florence, South Carolina
in November 2006. Riley's endorsement stamp becomes particularly relevant here
in the context of JPMC unilaterally assigning the Loan to itself and flipping it to
the LSF9 Trust on the same day--December 23, 2014.
On January 12, 2015, the LSF9 Trust filed a foreclosure action in the
Superior Court of New Jersey, under Docket No. F-000991-16. An Affidavit of
Service was filed with the state court on February 19, 2016, stating that Petitioner
was personally-served with the complaint on January 16, 2016, but described
Petitioner as a "Black" female with "Blonde" hair.
In reality, Petitioner was not served at all and first became aware of the
foreclosure action in September 2016, when the LSF9 Trust filed a motion for final
judgment. Petitioner attempted to appear in the foreclosure action and argue
certain defenses, but the state court refused to consider any of my arguments,
including the fact that Petitioner was never served with the complaint, and
remanded the case to the Superior Court Clerk's Office of Foreclosure as an
uncontested case. On May 27, 2017, the Superior Court Clerk entered an
Uncontested Order for Final Judgment of Foreclosure.
On August 14, 2017, Petitioner filed a Chapter 13 Bankruptcy Petition before
the U.S. Bankruptcy Court for the District of New Jersey ("Bankruptcy Court"),
which is currently pending under Case No. 17-26505-JKS ("Bankruptcy Case").
Petitioner then filed an Adversary Complaint in the Bankruptcy Case on December
18, 2017 ("Adversary Complaint"), against Appellees challenging the LSF9 Trust's
9

ownership of the Loan and seeking to discharge any claim the LSF9 Parties had.
Despite WMB's affidavit stating that the note was lost, the LSF9 Parties
submitted a Proof of Claim ("POC") in the Bankruptcy Case on December 21, 2017,
that supposedly appends a copy of the original note, which has no endorsement
stamp. Interestingly, the supposed note appended to the POC is 6 pages long,
however, the signature page is not the signature page to the note.
Rather, that page is extracted from an Adjustable Rate Rider Petitioner
executed with the mortgage and note, which is clearly evidenced by the language on
that page confirming what the document actually is. Additionally, the form
numbers appearing at the bottom of this signature page are different than the other
5 pages of the purported note (i.e., the signature page shows "32843 (11-01)" on the
bottom left corner and "LRD02USF (VERSION 1.0)" on the bottom right corner,
whereas the other 5 pages show "32859 (11-01)" on the bottom left corner and
"LNT60USE (VERSION 1.0)" on the bottom right corner.
What is more, the purported note filed with the POC is one of several
different versions Appellees claim to be the original, one of which was submitted as
part of the state-court foreclosure action (also with the rider page as the signature
page) with Riley's endorsement stamp. This inconsistent "patchwork" is
representative of the fraudulent document creation and manipulation used by
JPMC, and now LSF9 Trust, throughout the country.
The LSF9 Parties' also responded to the Adversary Complaint with a motion
to dismiss, which was heard on April 3, 2018, before the Honorable John K.
10

Sherwood, U.S.B.J. On April 11, 2018, Judge Sherwood issued an oral opinion on
the record, and the following day, on April 12, 2018, issued an Order dismissing the
Adversary Complaint.
Following that decision, Petitioner’s bankruptcy attorney and Petitioner
contacted JPMC by telephone and, during that call, spoke with a loss mitigation
specialist who repeatedly stated that the loan data in JPMC's system confirmed
that JPMC never owned the loan and was only its servicer. (Appellant Appendix,
Vol. II, pp. A29-A31.) Indeed, the representative specifically stated that the loan
was listed in JPMC's system as an investor loan, listing the "investor" as "private
securitized.” Ibid.
In the meantime, Petitioner filed an appeal from that Order to the U.S.
District Court; and, after briefing, the Honorable Jose L. Linares, Chief Judge (now
retired) issued an opinion and order affirming Judge Sherwood's ruling on March
11, 2019. The Third Circuit (JORDAN, BIBAS and PHIPPS, Circuit Judges)
affirmed in a non-precedential opinion.

11

REASONS FOR GRANTING THE PETITION
1.

The Rooker-Feldman doctrine does not apply here

While Rooker-Feldman proposes that "lower federal courts possess no power
whatever to sit in direct review of state court decisions," Atl. Coast Line R.R. Co. v.
Brotherhood of Locomotive Eng'rs, 398 U.S. 281, 296 (1970), the doctrine does not
apply expansively to any claim where a state court action involved the same subject
matter. The doctrine only addresses the "limited circumstances" in which a federal
court is precluded from exercising subject-matter jurisdiction "in an action it would
otherwise be empowered to adjudicate under a congressional grant of authority."
Exxon Mobil Corp. v. Saudi Basic Indus. Corp., 544 U.S. 280, 291 (2005) (emphasis
added).
Whether Rooker-Feldman precludes federal court jurisdiction over a claim
requires consideration of four factors (1) the federal plaintiff lost in state court; (2)
the plaintiff complainjs] of injuries caused by [the] state-court judgments; (3) those
judgments were rendered before the federal suit was filed; and (4) the plaintiff is
inviting the district court to review and reject the state judgments. See Hoblock v.
Albany County Bd. of Elections, 422 F.3d 77, 87 (2d Cir.2005)).
When a plaintiff asserts injury caused by the defendant's actions and not by
the state-court judgment, Rooker-Feldman is not a bar to federal jurisdiction. A
useful guidepost is whether the injury complained of in federal court existed prior to
the state-court proceedings and thus could not have been “caused by” those

12

proceedings.
This test becomes more complicated when a federal plaintiff complains of an
injury that is in some fashion related to a state-court proceeding, and in such
situations the timing of the injury becomes a critical factor in the examination. If
the claimed injury is based on a defendant's conduct, including conduct that
resulted the state-court judgment, the federal suit is independent, even if it asks
the federal court to deny a legal conclusion reached by the state court.
If a matter was previously litigated in state court, in whole or part, and the
federal court then reaches a conclusion contrary to a judgment by the [state] court,
without concerning itself with the bona fides of the prior judgment, the federal court
"is not conducting appellate review, regardless of whether compliance with the
second judgment would make it impossible to comply with the first judgment."
Bolden v. City of Topeka, 441 F.3d 1129, 1143 (10th Cir.2006).
In the instant case, the LSF9 Parties' motion to dismiss was based on a
misconception that Petitioner is challenging the validity of the underlying mortgage
and note, when in fact she is challenging only the LSF9 Trust's alleged ownership of
that mortgage and note-a markedly different claim.
With regard to the mortgage and note that LSF9 Trust claims to own in this
case, the documentation referenced above-including the various SEC filings by
WMAAC, McCaffrey's audit, the Affidavit of Lost Note and, most importantly, the
supposed note filed with the Proof of Claim-clearly demonstrate that JPMC was
only the servicer for the Loan and never held any ownership interest. Moreover,
13

JPMC's own representative admitted to me in a recorded telephone call that JPMC
never owned the Loan and was just servicing it. (Appellant Appendix, Vol. II, pp.
A29-A31.) It necessarily follows, then, that JPMC could not have sold or assigned
ownership interest to LSF9 Trust.
This point is significant in distinguishing between what the LSF9 Parties
claim Petitioner is challenging and what she really is challenging. Specifically,
Petitioner does not claim that Petitioner did not obtain a loan or that Petitioner
may not owe a debt; Petitioner am simply arguing that Petitioner does not owe that
debt to LSF9 Trust or JPMC.
Thus, this dispute is not about the validity of the actual mortgage or note,
but about the LSF9 Parties and/or JPMC's standing to enforce the debt and their
duplicitous conduct in attempting to convince the courts that they do have that
standing.
In 2012, the District Court addressed this issue as well, declining to dismiss
a complaint, holding that a plaintiffs challenge to defendants' actions in procuring
a state-court judgment is not barred by RookerFeldman, "even though the lawsuit
may require review of the state court litigation and may hold that the state court
judgments are erroneous." Giles v. Phelan Hallinan & Schmieg LLP, 901 F.Supp.2d
509, 522 (D.N.J.2012).
As to the second factor, the injury clearly resulted from JPMC and the LSF9
Parties' actions prior to the state court judgment. By recording an assignment for a
mortgage that JPMC admits it never had title to, JPMC (and LSF9 Trust) clouded
14

title to my home. JPMC unequivocally knew that it did not own the mortgage, and
LSF9 Trust made no effort to investigate or address the fact that there was never
any assignment to JPMC prior to accepting any assignment from JPMC. The lack
of due diligence suggests that LSF9 Trust is not an innocent third-party but at least
constructively complicit in JPMC's fraudulent scheme to profit from the utter
disarray and confusion created by WMB's closure. The LSF9 Parties misled the
state court to procure the foreclosure judgment, then misled Judge Sherwood to
procure dismissal of the Adversary Complaint and enforce a debt LSF9 Trust has no
title to, then misled Judge Linares into affirming the dismissal.
The rightful mortgagee and note-holder is believed to be the 2006-AR9 Trust
and, given the opportunity, this can be confirmed through JPMC and/or the LSF9
Parties' own records.
With regard to the fourth requirement, Petitioner did not ask the Bankruptcy
Court to review the "bona fides" of the state-court judgment. Instead, Petitioner
requested a review of JPMC and the LSF9 Parties' actions prior to the state-court
judgment and relief for the injury caused by their erroneous assertions of ownership
interest in the Loan.
As stated above, so long as the state-court's judgment specifically is not being
reviewed, a federal court is permitted to reach a conclusion contrary to that
judgment, even if compliance with the federal court's judgment "would make it
impossible" to comply with the state-court judgment.
The LSF9 Parties' arguments in this regard fail to recognize Rooker15

Feldman's limited application, likely because they conflate the four-part test with
pre-Exxon Mobil analysis of this doctrine, where federal courts were able to broadly
decline jurisdiction if the federal claims were "inextricably intertwined.” However,
the decision in Exxon Mobil recognizes that Rooker-Feldman is a doctrine with
limited application.
In upholding the dismissal of the Adversary Complaint, the District Court
essentially found that Petitioner was challenging the state-court foreclosure
judgment, and thereby failed to recognize the legally-distinct pre-judgment injury
caused by JPMC and LSF9 Trust's illegitimate assignments of the Loan.
A Court certainly has the authority and the ability to render a decision on the
fraudulent conduct that pre-existed the state-court judgment and grant relief from
that conduct. Further supporting this point is the fact, discussed in detail below,
that the state-court judgment was issued effectively by way of a default, and did not
consider the merits of JPMC and LSF9 Trust's asserted ownership of the Loan.
2. The claims are not barred by res judicata.
The doctrine of res judicata generally precludes parties from re-litigating
claims or defenses that were available to them in a prior proceeding. See Velasquez
v. Franz, 123 N.J. 498, 505 (1991). "The doctrine of res judicata 'contemplates that
when a controversy between parties is once fairly litigated and determined it is no
longer open to litigation.'" Culver v. Ins. Co. ofN. Am., 115 N.J. 451, 460 (1989)
(quoting Lubliner v. Bd. of Alcoholic Beverage Control, 33 N.J. 428, 435 (I960)).
New Jersey and federal law apply res judicata if three requirements are met:
16

(1) "the judgment in the prior action must be valid, final, and on the merits";
(2) "the parties in the later action must be identical to or in privity with those in the
prior action"; and (3) "the claim in the later action must grow out of the same
transaction or occurrence as the claim in the earlier one." Hulmes v. Honda Motor
Co., 924 F.Supp. 673, 682, n. 12 (D.N.J.1996) (citations omitted). Then, to
determine whether the claim in the subsequent action arises from the same
transaction or occurrence as the prior claim, New Jersey courts consider the
following 4 factors:
(1) whether the acts complained of and the demand for relief are the
same (that is, whether the wrong for which redress is sought is the
same in both actions)...; (2) whether the theory of recovery is the
same; (3) whether the witnesses and documents necessary at trial are
the same (that is, whether the same evidence necessary to maintain
the second action would have been sufficient to support the first) ... ;
and (4) whether the material facts alleged are the same.
[Culver, supra, 115 N.J. at 461-62 (citations omitted)
Notwithstanding, this Court has recognized that the Bankruptcy Code
contains an exception to the Full Faith and Credit statute in the context of the
dischargeability of debts. See Brown v. Felsen, 442 U.S. 127, 135-36 (1979).
Writing for a unanimous Court, Justice Blackmun warned of the implicit
dangers associated with applying res judicata in that context: "Because res judicata
may govern grounds and defenses not previously litigated, however, it blockades
unexplored paths that may lead to truth. For the sake of repose, res judicata
shields the fraud and the cheat as well as the honest person. It therefore is to be
invoked only after careful inquiry." Id. at 132. Justice Blackmun also recognized
17

that applying res judicata to bankruptcy proceedings may undercut Congress' intent
to have bankruptcy courts resolve dischargeability issues. Id. at 134 (citations
omitted).
The Court went on to reject the notion that res judicata applied to
bankruptcy proceedings and held that ”[t]he bankruptcy court is not confined to a
review of the judgment and record in the prior state-court proceedings when
considering the dischargeability of [a party's] debt." Id. at 138. In other words,
pursuant to the Bankruptcy Code, bankruptcy courts have "exclusive jurisdiction"
to determine the dischargeability of a debt. Brown, supra, 440 U.S. at 136-38.
Therefore, a prepetition state-court judgment does not have a res judicata effect on
a subsequent dischargeability proceeding in bankruptcy court.
Even still, for res judicata to apply, as stated in Culver, the clear standard
requires that the prior case be adjudicated on the merits. While New Jersey courts
have applied this preclusion to matters resulting default judgments, it is important
to understand that most, if not all, default judgments are issued following the
court’s careful consideration of the proofs (i.e., at a proof hearing or on the papers).
In fact, judges often deny default judgments based on flawed documentation and/or
insufficient evidence.
In the context of foreclosures, though, an uncontested judgment is entered
automatically upon recommendation by staff in the Superior Court Clerk’s Office of
Foreclosure (i.e., without any judicial review). Moreover, with the high-volume of
foreclosure cases being processed by the office on a daily basis, there is little chance
18

that staff in that office give proofs the same level of scrutiny that a judge would.
Effectively, all that review accomplishes is to check off boxes on a list of
requirements (e.g., copy of the mortgage, copy of the note, certification of
nonmilitary service, etc.). With no proof hearing held, and no judge actually
examining the evidence proffered in support of judgment, an uncontested
foreclosure judgment cannot, logically or equitably, be considered a judgment on the
merits.
Here, dismissal of the Adversary Complaint based on res judicata fails under
the factors set forth in Hulmes and Culver, as well as the analysis in Brown. First,
looking at the three-part Hulmes test, the only requirement that is arguably met, is
the second: the same parties in both actions. As proffered above, the foreclosure
judgment was not on the merits-in fact the state court declined to hear the
merits-and, most importantly, applying the factors set forth in Culver, the
adversary proceeding does not arise out of the same transaction or occurrence as the
state-court action.
Specifically: the "wrong" being redressed and theory of recovery in this
action are entirely different; a trial in this case will require different documents and
witness testimony than the state-court action; and the material facts alleged are
clearly unalike.
3. The Bankruptcy Court Abused Its Discretion And Misapplied The Law
In Dismissing The Proof of Claim Challenges Set Forth In The Adversary
Complaint.
In dismissing the Adversary Complaint, the Bankruptcy Court also dismissed
19

my legitimate challenges to the POC filed by LSF9 Trust, based upon RookerFeldman and other principles. This was a clear abuse of discretion and, along with
the District Court's affirmation of the dismissal, a patent failure to impose the
Bankruptcy Court's exclusive jurisdiction over such disputes.
The allowance of claims in a bankruptcy proceeding is generally governed by
11 U.S.C. § 502, which provides that "[a] claim or interest, proof of which is filed
under section 501 of this title, is deemed allowed, unless a party in interest...
objects." 11. U.S.C. § 502(a).
Under Federal Bankruptcy Rules, an objection to the allowance of a claim
must be in writing and filed at least 30 days prior to the hearing. Fed.R.Bankr.P.
3007. The Local Rules for the District of New Jersey state that "[a]n objection to
the allowance of a claim must be brought by motion or adversary proceeding."
D.N.J. LBR 3007-1.
If a party in interest objects, then pursuant to 11 U.S.C. § 502(b)(1), a claim
will not be allowable if it is "unenforceable against the debtor, and property of the
debtor, under any agreement or applicable law for a reason other than because such
claim is contingent or unmatured." Ibid.
To determine whether claims are enforceable for bankruptcy purposes, 11
U.S.C. § 502 relies upon non-bankruptcy law. See In re Combustion Eng’g Inc., 391
F.3d 190, 245, n. 66 (3d Cir.2005) (citations omitted). As such, "[a] claim against
the bankruptcy estate 'will not be allowed in a bankruptcy proceeding if the same
claim would not be enforceable against the debtor outside of bankruptcy.'" Ibid.
20

(citations omitted). The ultimate effect of this statute "is to provide a bankruptcy
trustee [or the debtor] with the same rights and defenses to claims as held by the
debtor prior to bankruptcy." Ibid.
Petitioner’s objections to the POC filed by the LSF9 Parties in this case were
properly asserted through the Adversary Complaint and were not subject to any
arguments regarding preclusion or other estoppel doctrines. Furthermore, the
evidence brought to light in the context of the LSF9 Parties' motion demonstrates
that there are critical deficiencies in the POC and, with the bar date for claims in
the Bankruptcy Case having already passed, LSF9 Trust is bound by the POC that
was filed.
As a result, Petitioner argued before the Bankruptcy Court that if the
Adversary Complaint is dismissed without hearing my objection to the POC, it
would deprive me of a statutory entitlement to have that objection heard and
considered.
That precise issue has been examined by several federal courts throughout
the country and it has been explicitly found that:
Application of the Rooker-Feldman doctrine in bankruptcy is limited
by the separate jurisdictional statutes that govern federal bankruptcy
law. The Rooker-Feldman doctrine has little or no application to
bankruptcy proceedings that invoke substantive rights under the
Bankruptcy Code or that, by their nature, could arise only in the
context of a federal bankruptcy case. In the exercise of federal
bankruptcy power, bankruptcy courts may avoid state judgments in
core bankruptcy proceedings ... , may modify judgments ... , and, of
primary importance in this context, may discharge them ....
Sasson v. Sokoloff (In re Sasson), 424 F.3d 864, 871 (9th Cir.2005), cert, denied, 546
21

U.S. 1206 (2006)
In Sasson, the Ninth Circuit held that a bankruptcy court's judgment
discharging a state-court judgment was a plain exercise of "its exclusive statutory
power to determine whether a debt is dischargeable in a bankruptcy case"; which is
a "core bankruptcy [proceeding] and [is] not subject to the Rooker-Feldman
doctrine." Ibid, (citations omitted).
Here, dismissal of the Adversary Complaint's challenges to the POC deprived
the Bankruptcy Court of its exclusive jurisdiction to determine the validity of the
POC itself, as well as the resulting dischargeability of the debt. As discussed in
Sasson, this core function of the Bankruptcy Court is not subject to RookerFeldman's limiting effects, Sasson, supra, 424 F.3d at 871; and, that finding clearly
comports with the notion that doctrine occupies "narrow ground", limited to a
"confined" class of cases. Exxon Mobil, supra, 544 U.S. at 284. The challenge to the
POC must be allowed to proceed.
Conclusion
Based on the foregoing, certorari should be granted.
Dated: June 12. 2020
Respectfully submitted,
/s/ Robyn Jill Farrington

0
22

